HHS/OIG, Audit -"Review of Medicare Part A and Part B Administrative Costs Claimed
by Empire Medicare ServicesOctober 1999 through September 2002,"(A-02-03-01020)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part A and Part B Administrative Costs Claimed
by Empire Medicare Services  October 1999 through September 2002," (A-02-03-01020)
March 30, 2006
Complete
Text of Report is available in PDF format (355 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether (1) Empire Blue Cross and Blue Shield (Empire)
and its Medicare Division had effective internal controls, accounting systems, and reporting
procedures for the administrative costs included in the cost proposals and (2) these costs
were allocable, reasonable, and allowable in accordance with part 31 of the Federal Acquisition
Regulations and Appendix B of the Medicare contract.  Empires internal controls were
largely effective in identifying costs that should be excluded from the cost proposals.  However,
weaknesses in certain controlsprimarily those for screening indirect costsresulted in claims
for $4,686,611 (1.32 percent of the total costs) that should not have been charged to Medicare.
We recommended that Empire:  (1) reduce its cost proposals by $4,686,611; (2) work
with CMS to determine the extent to which $2,090,653 in reported forward-funding costs are
allocable, reasonable, and allowable; (3) properly allocate bonuses in future cost proposals;
(4) develop equitable indirect cost rates for use in future cost proposals; and (5) properly
consider, in future cost proposals, all elements of executive compensation when calculating
compensation in excess of Federal limits and exclude unallowable expenses from costs transferred
to Medicare.  Empire did not concur with our recommendations concerning unallocable
bonus payments, but concurred with the remaining recommendations.